XAVIER BECERRA
Attorney General

State of California
DEPARTMENT OF JUSTICE
1300 I STREET, SUITE 125
P.O. BOX 944255
SACRAMENTO, CA 94244-2550

Public: (916) 445-9555
Telephone: (916) 210-7742
Facsimile: (916) 324-2960
E-Mail: Brian.Means@doj.ca.gov

February 2, 2021
Via Electronic Filing System
Mr. Scott S. Harris, Clerk
Supreme Court of the United States
One First Street, N.E.
Washington, D.C. 20543
RE:

Rodney Berryman v. Ron Davis, No. 20-6822
Request for Extension of Time

Dear Mr. Harris:
The petition for writ of certiorari in this case was filed December 31, 2020. The response
is currently due on February 10, 2021. Pursuant to Rule 30.4, Respondent respectfully requests
that the time for filing the response be extended by 30 days, to and including March 12, 2021. I
have made good progress on drafting the response, but need additional time to complete it and
allow time for review, revisions, and filing. An extension would better enable preparation of a
response that Respondent believes would be most helpful to the Court. Opposing counsel,
Saor E. Stetler, has no opposition to this request.
Sincerely,
/s/ Brian R. Means
BRIAN R. MEANS
Deputy Attorney General
For

BRM:ts
cc: Saor E. Stetler, Attorney for Petitioner
SA2021300175
34789883.docx

XAVIER BECERRA
Attorney General

